164

t

.i

court, US'
F/I.EO

IN THE SUPREME COURT OF THE UNITED STATE

may

20 r:2i

■2£!£gPFTHECl -re.

MICHAEL MOSLEY, PETITIONER
V.

JOHN RICH, WARDEN, RESPONDENT.

ON A PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

MICHAEL MOSLEY, ll-A-3334
PETITIONER, PRO SE
s

ELMIRA CORRECTIONAL FACILITY
t

1879 DAVIS ST.
P.O. BOX 500 .
ELMIRA, N.Y. 14902

QUESTIONS PRESENTED
In this case, despite having an alibi, the Petitioner was convicted of Murder
in the First Degree, based entirely on circumstantial evidence, and sentenced to
life without parole. There was no direct evidence, eyewitness or confession
against him. After trial, he was the first inmate in New York to ever have a
440.10 Hearing conducted based on freestanding Actual Innocence and vast amounts
of Ineffective Counsel.
The State Court found that he did not prove his innocence by "clear and
convincing evidence", and that all of his lawyer's decisions were "based on
trial strategy". The questions presented to this Court for review are:
Regarding Actual Innocence:
1. In this wholly circumstantial case where the Petitioner has alibi, and after
trial presents: 1) substantial new exculpatory witnesses and evidence showing
that two other men actually committed the crime, 2) new forensic experts who
proved that the prosecutor and her experts misrepresented the ONLY evidence
connecting the Petitioner to the crime, and 3) new fact witnesses and evidence
proving that the prosecutor's unsupported claims of motive, opportunity and
consciousness-of-guilt were completely false and fabricated, does all of this
new credible and compelling evidence, combined with the alibi, constitute a
"truly persuasive showing of actual innocence" pursuant to Herrera v Collins
sufficient to warrant freestanding habeas relief?

2. Did the District Court commit error in not reviewing Petitioner's Actual
Innocence claim under the Schlup v Delo "gateway" standard, in order to review
two Ineffective Counsel claims it found to be procedurally defaulted, so that
ALL of counsel's errors, ALL of the evidence and the credibility of the trial
witnesses could be considered as a whole and re-weighed, in order to ensure that
a Constitutional violation did not result in the conviction of an innocent man?
i

s

Regarding Ineffective Counsel:
3. Does defense counsel violate the requirements of Strickland by failing to
present any of the substantial exculpatory witnesses or evidence showing that
two other men actually committed the crime, where his decision not to present it
was not based on strategic reasons, but was based on his "mistaken belief" that
all of the exculpatory witnesses lied in order to get deals for themselves, and
on his "legal misunderstanding" that he had to prove the two men's guilt to the
jury?

4. When defense counsel in an entirely circumstantial case is indisputably given
ADVANCE NOTICE that his primary defense will likely be unsuccessful because the
. prosecutor is presenting experts who's conclusions are adverse to the defendant
and will directly contradict his testimony and innocent explanation for the only
evidence connecting him

to

the crime,

does counsel have "a duty" under

Strickland to at least consult with an expert in order to make an informed
decision as to whether he can challenge the State's experts

conclusions,

corroborate the defendant's testimony, or support the defense he is presenting?

5. Is Due Process and the Confrontation Clause of the 6th Amendment violated
when jurors make "quite a reaction" to a prosecutor's impermissible, inference to
the jury that a non-testifying eyewitness saw the defendant at the crime scene,
and is counsel ineffective for failing to object to or correct this critical
misstatement and Constitutional violation, when he admittedly knew it was false?

6. Was counsel ineffective for knowingly allowing the prosecutor to present
false and unsupported claims of motive, opportunity and consciousness-of-guilt,
when he had available witnesses and evidence that clearly proved the prejudicial
claims were false and fabricated?

ii

7. Are a defendant's 5th and 14th Amendment rights violated when the police
impermissibly use a court-ordered search warrant for his palm prints as a ploy
in order to seize and interrogate him without proper Miranda warnings, and is
counsel ineffective for failing

to even try

to suppress

the defendant's

statements on these Constitutional grounds?

8. Was counsel Ineffective for failing to bring it to the Judge's attention that
the Petitioner had refused to answer police questions during the interrogation,
because his previous lawyer had legally advised him not to answer any questions
about the crime,

or to,

at least, ask for limiting instructions for the

Petitioner's attorney-advised silence, so that an adverse inference for his
silence could be avoided?

9. Was counsel ineffective for allowing the prosecutor to directly violate this
Court's rules announced in Doyle v Ohio and Griffin v California, by eliciting
testimony from a police officer that the Petitioner invoked his right to counsel
and his right to silence AFTER he was given Miranda warnings, and then inviting
the jury to infer guilt based on the Petitioner exercising his rights AFTER
arrest,

exercising his right to a jury trial instead of answering police

questions, and for following the legal advice of his prior lawyer?

10. Since this was an entirely circumstantial case, where the jury deliberated
for two days and asked for read-backs regarding physical evidence that EXCLUDED
the Petitioner, did the cumulative effect of all of counsel's errors deprive the
Petitioner of his Constitutional right to. the effective assistance of counsel
and Constitutional right to a fair trial?

11. Was the State Court's decision contrary to, or an unreasonable application
of, this Court's precedent, or an unreasonable determination of the facts in
light of the evidence presented, pursuant to 28 USC §2254(d) (1) & (2)?
iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1

INTRODUCTION

2

THE CRIME

2

THE INVESTIGATION

4

THE SUPPRESSION HEARING

5

THE TRIAL

6

A. THE PHYSICAL EVIDENCE AND SNOWBOARDING..........

6

B. THE PROSECUTOR'S CLAIMED MOTIVE, OPPORTUNITY
AND CONSCIOUSNESS-OF-GUILT..................................

9

C. THE JUNE 14th INTERROGATION

9

D. MY POST-MIRANDA INVOCATION OF RIGHTS
AND POST-ARREST SILENCE........................

10

E. ALL OF THE WITNESSES AGAINST BATTISTE AND BERRY....

10

F. DELIBERATIONS

10

G. SENTENCING

11

POST-CONVICTION

11

A. SNOWBOARDING, MY HAND INJURY
AND THE PHYSICAL EVIDENCE........................

11

B. THE PROSECUTOR'S FALSE MOTIVE, •
OPPORTUNITY AND CONSCIOUS-OF-GUILT....

14

C. NEW EXCULPATORY WITNESSES AND EVIDENCE

16

D. OTHER INSTANCES OF INEFFECTIVE COUNSEL

19

THE STATE COURT DECISIONS

19

THE DISTRICT COURT DECISION

19

SUMMARY OF ARGUMENT

20

ARGUMENT

21

IV

POINT I: INEFFECTIVE COUNSEL

21

A. COUNSEL'S FAILURES REGARDING
SNOWBOARDING AND THE PHYSICAL EVIDENCE

21

B. COUNSEL'S FAILURE TO CALL CRITICAL FACT WITNESSES...

29

C. COUNSEL'S FAILURE TO SUPPRESS THE
JUNE 14th INTERROGATION ON CORRECT GROUNDS

31

D. COUNSEL'S FAILURES REGARDING MY POST-MIRANDA
INVOCATION OF RIGHTS AND POST-ARREST SILENCE

31

E. COUNSEL'S FAILURE TO PRESENT EVIDENCE SHOWING
THAT TWO OTHER MEN COMMITTED THE CRIME............

32

F. THE CUMULATIVE EFFECT OF COUNSEL'S FAILURES

34

POINT II: ACTUAL INNOCENCE

35

A. FREESTANDING ACTUAL INNOCENCE

36

B. THE SCHLUP "GATEWAY" CLAIM OF ACTUAL INNOCENCE

39

CONCLUSION

40

v

TABLE OF AUTHORITIES
Andrus v Texas 140 SCt 1875 (2020)

.23, 29, 33, 35, 40

Battiste v Dept of Justice 2009 WL 308429 (NDNY 2009)

19

Chambers v Mississippi 410 US 284 (1973)

32

Doyle v Ohio 426 US 610 (1976)

10, 31, 32

Dunaway v New York 442 US 200 (1979)

31

Estelle v Smith 451 US 454 (1981)

31

Griffin v California 380 US 609 (1965)

10, 31

Harrington v Richter 562 US 86 (2011)

21

Herrera v Collins 506 US 390 (1993)

20-21, 27, 36, 39

Hinton v Alabama 571 US 263 (2014)

21, 25, 27-28, 33

House v Bell 547 US 518 (2006)

31, 34-37, 39-40

Kimmelman v Morrison 477 US 365 (1986)
Miranda v Arizona 384 US 444 (1966)

25, 31, 33
5, 10, 20

31-32, 35, 38

Mosley v Rich 2020 WL 3128530 (NDNY 2020)

1

Parker v Gladden 385 US 363 (1966)

35

People v Mosley 155 AD3d 1124 (3rd Dept 2017)

1

Porter v McCollum 558 US 30 (2009)......................

24, 29, 35, 39

Rompilla v Beard 545 US 374 (2005)

23, 28

Schlup v Delo 513 US 298 (1995)

21, 33-34, 37, 39-40

Sears v Upton 561 US 945 (2010)

28

Strickland v Washington 466 US 668 (1984)

22-24, 28, 33, 39

Taylor v Illinois 484 US 400

33

US v Agurs 427 US 97 (1976)

30

Wiggins v Smith 539 US 510 (2003)

21-22, 24-26, 32-33

Williams v Taylor 529 US 362 (2000)

.............

Wainwright v Greenfield 474 US 284 (1986)

vi

25, 33, 36
32

OPINIONS BELOW
The Orders of the Second Circuit Court of Appeals denying my application for a
Certificate of Appealability and Petition for Rehearing are not reported (A 50-51).
The decision of the Northern District Court is reported as Mosley v Rich 2020 WL
3128530 (NDNY 2020)(A 33-49). The decision of the N.Y. Appellate Court affirming my
conviction is reported as People v Mosley 155 AD3d 1124 (3rd Dept 2017) (A 23-31).
JURISDICTION
The Second Circuit denied my application for a COA on December 30, 2020, and then
denied my timely Petition for Rehearing on February 23

2021. I filed a timely

petition for a writ of certiorari on May 13 , 2021. This Court has jurisdiction
pursuant to 28 USC §1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the 5th, 6th and 14th amendments to the Constitution, which
respectively provide that "in all criminal prosecutions, the accused shall enjoy..."
the right to be free from self-incrimination;

the right to the assistance of

counsel; the right to confront witnesses; and "No State shall deprive any person of
life, liberty or property, without due process of law." This case also involves 28
USC §2254 (d) and (e), which are reprinted in the Appendix (A 52-53).
STATEMENT OF THE CASE
I AM COMPLETELY INNOCENT OF THIS CRIME. I have been sentenced to spend the rest of
my life' in prison for a crime L did not commit, so, PLEASE, just take the time to
actually review all of the new exculpatory evidence in my case. I have an alibi,
which was my mother's 50th birthday, and have now produced new exculpatory witnesses
and evidence that proves two other men really committed this crime; new forensic
experts who not only corroborated my trial testimony, but who also proved that the
prosecutor and her experts misrepresented the only physical evidence; and new fact
witnesses who proved that the prosecutor's motive, opportunity and consciousness-ofguilt claims were completely false and made-up. None of the witnesses or evidence

1

was presented to the jury. This was an entirely circumstantial case, with no eye­
witness, confession or direct evidence against me, and none of my'DNA or prints was
found on any of the murder weapons found at the scene. Additionally, there was two
locations of unknown blood DNA admixed with the victims' blood, an unknown bloody
palm print, and an unknown bloody boot print found at the scene, which all EXCLUDED
me as a match. Had my lawyer done any type of investigation and presented all of the
witnesses and evidence that I did after trial, I would have been acquitted.
INTRODUCTION
In 1999 and 2000, .1 was buying,, selling and using drugs provided by Sam Holley.
During that time, we became friends, I met his family and friends, and we sometimes
hung out or went places together. In January of 2001, my wife, then girlfriend,
Kathleen Kalendek, told me to change my life or I couldn't see our kids. On February
*

1, 2001, I moved 45 minutes away to my mother's house. While there, I stopped
drinking and doing drugs, cut my hair short and shaved my face, then joined a gym
with my mother and lost 30 pounds. I also got a full-time job with the State at SUNY
Albany in the Paint Shop, completed an 8-week drug and alcohol program, and re­
acquired my driving license. From October of 2001 to February of 2002, I built a
house addition on my mother's rental property on nights and weekends (A 54-95).
In October of 2001, while helping a friend fix his car, I saw Sam walking down the
street. I hadn't seen him in 8-9 months and gave him a ride to his new apartment. We
talked about where I had moved to and what I was doing with my life. When I dropped
him off, I told him that I would stop by once in awhile, since I drove right past
his apartment on my way home from visitation with one of my kids. From October 2001
to January of 2002, I stopped and saw Sam approximately 4-6 times (A 96-106).
THE CRIME
On January 24, 2002, I left work at 4:00 PM, picked my son up at the baby sitter's
and took him to the Gorge, which is a small public park, so he could go snowboarding
on the hill there. When we were there, I fell while snowboarding and sustained small

2

scrapes and abrasions to my right hand. When we left, I stopped outside of Sam’s
apartment, which was right next door to the Gorge, and talked to Sam for a couple of
minutes, while he and my son made fun of me for falling.-I told Sam I was taking the
next day off from work to buy my mother a birthday gift. Since I wouldn’t be
working, he asked if I could give him a ride to Court in the morning. I told him
"Yes" and then brought my son home to his mother, Kathleen Kalendek. While there,
she. cleaned and wrapped the injuries on my hand. I then left, drove to my mother’s
and sat on the porch with my parents until 10:00, and went to bed (A 107-130).
The next morning, January 25, 2002, which was my mother's 50th birthday, my mother
woke me up at 5:45 AM, like she did every weekday, me and my father wished her a
happy birthday, and we all had coffee and talked before they left for work. I then
took the bandages off my hand, took a shower and got dressed. Even though the
injuries on my hand weren’t completely healed, I didn’t put more bandages on,
because my mother only had small band-aids. I then left around 9:00 AM to give Sam a
ride and look for my mother’s present (A 131-138).
When I got to Sam's, I knocked on the door and it opened. I saw Sam and his girl­
friend, Arica Schneider, laying on the floor covered in blood. I shook both of them
to see if they were alive, and then heard a noise coming from the bedroom, where I
found a ringing phone under the mattress. I had never seen a dead body before, and
knowing that Sam was a drug dealer and member of the 'Bloods’, I became scared and
left without calling 911. Also, even though I had been clean and sober for a year, I
was worried that the police would think I had something to do with it, because of my
past drug use and drug dealings with Sam, or that the police would put my name in
the news as a person that possibly knew or saw something (A 139-154).
The next day, Sam's half-brother, Tremaine Hill, who was involved in the drug
business with Sam, found the bodies, searched the apartment, took money, drugs and
clothing, dropped the stuff off at a friend's apartment, and then notified the
police of the dead bodies (A 155-162).

3

The evidence showed that Sam was on the phone at 1:07 AM, so they had been killed
between then and 8:00 AM, when Arica didn't show up for work (A 163-65).
THE’INVESTIGATION
After a 5-year investigation, Terry Battiste and Bryan Berry, who were members of
a gang that robbed drug dealers, were indicted for the crime, based on an eyewitness
who identified Battiste at the crime scene

two witnesses who testified that

Battiste and Berry had conducted surveillance on the victims' apartment just prior
to the murders in preparation of robbing Sam, and three witnesses who testified that
Battiste and Berry made inculpatory admissions to them regarding the murders. These
same witnesses resulted in Battiste and Berry being Federally indicted, convicted
and sentenced to 79 months for violating the Hobbs Act, in a series of home
invasions of other drug dealers (A 166-197).
Just prior to their trial, my DNA, through probation, was found to match DNA found
on the bedsheet at the crime scene. On May 13, 2010, the police told me that my DNA
was at the scene, but not where it was located. At that time, I had been coaching
youth wrestling and Pop Warner football for 8 years. Nobody in the small town that I
lived and coached in knew anything about my past lifestyle and drug use, so rather
than get involved and have my name in the news, I didn't tell the police that I
found the dead bodies. I also didn't tell them I found the bodies, because the news
had repeatedly said that all of the witnesses or their family members had been
assaulted or threatened by Battiste and Berry, and I didn't want my wife or kids in
danger. I did tell the police that in 1999 and 2000 I was using drugs given to me by
Sam, but had stopped using drugs and moved away a year before the crime, and then
r
had run into Sam and saw him a few times before his death (A 198-208).
After I left the police officers, I called my lawyer, Kevin Engle, who was rep­
resenting me on a pending DWI case, and told him about the DNA and that the police
were questioning me about the murders. He told me not to answer any more questions,
because DNA was tricky, and to call him if the police tried to question me again. I

4

then called my wife and repeated some of the '‘legal advice that my lawyer had given
to me. Unbeknownst to me, the police were recording my phone calls (A 209-214).
On June 14, 2010, the police came to my place of work with a court-ordered search
warrant for my palm prints, told me I had to go with them, and placed me in the back
of a police car. When we got to the police station, they made me turn off my cell
phone and, instead of bringing me to the Fingerprint Room to execute the search
warrant, they took me to an interrogation room and conducted a 1.1/2 hour, taped
interrogation. Since my lawyer had told me not to answer questions, I repeatedly
refused to answer any questions regarding the crime or my DNA, repeatedly told them
that I wasn't involved in the crime, and repeatedly told them that I wanted to go to
trial instead of answering their questions.Qlfyalso. asked to end the - interrogation
and leave, but was told "No". After they gave me Miranda warnings, I invoked my
right to a lawyer and.my right to silence (A 215-407)
My right palm print was found to match a 2-inch by 2-inch partial palm print at
2
the scene with traces of blood in it. The indictment against Battiste and Berry was
dismissed, without prejudice, and I was charged with the murders.
THE SUPPRESSION HEARING
My lawyer tried to suppress my statements from the June 14th interrogation on the
ground that I was in custody, due to the police environment. However, Inv. Gordon
testified that I AGREED to go with them, that I WILLINGLY spoke to them, and that I
was NEVER in custody. My lawyer never questioned him about the fact that he seized
me with a court-ordered search warrant, that I wasn't given proper Miranda warnings
before the interrogation, that I refused to answer questions because my prior lawyer
had advised me not to answer questions, or that I specifically asked, to end the
interrogation and leave, but was told "No" (A 408-411).
Due to these facts being omitted, the Judge denied suppression, because he gave
"full credence" to Inv. Gordon's testimony and found that "the defendant willingly
spoke with or accompanied the Investigators and was never in custody" (A 412).

5

However, the Judge did rule that the prosecutor was precluded from making any
mention of a prior domestic dispute between me and my wife, Kathleen Kalendek, and
then upheld that ruling twice during trial (A 413-434).
TRIAL
The prosecutor's theory was that I snuck out of my mother's house in the middle of
the night, drove 45 minutes to Kathleen Kalendek's, snuck into her apartment, got
her keys and took her car without waking her or the kids, drove to the victims'
apartment and killed them for refusing me drugs,

then drove back to Kathleen

Kalendek's and dropped off her keys and car without waking her, and drove back to my
mother's and snuck back in without waking her, my father or the dog, all before 5:45
AM when my mother woke me up on her 50th burthday. According to the prosecutor, this
3
is when I killed the victims and left the physical evidence at the scene (A 435-36).
A. THE PHYSICAL EVIDENCE AND SNOWBOARDING
My blood on the bedsheet and partial palm print was the only evidence connecting
me to the crime, and were, therefore, the most critical issues at my trial. Since I
had an alibi, if I could prove that the physical evidence occurred AFTER the crime
when I found the victims, then the jury would have no choice but to acquit me. But,
if the prosecutor convinced the jury that the physical evidence occurred DURING the
crime, they would have no choice but to find me guilty. Therefore, the single most
important question for the jury in deciding my guilt or innocence was WHEN the
physical evidence occurred.
In opening statements, my lawyer told the jury that the evidence would show that
the physical evidence occurred AFTER the crime when I found the victims, and that
the blood on the bedsheet was due to me touching it with my hand that had unhealed
snowboarding injuries from the day before the crime (A 437-442).
The prosecutor, lacking any eyewitness

confession or direct evidence, sought to

show that her theory of events was true, by claiming that my blood on the bedsheet
was FRESH DRIPS from a knife wound sustained DURING the crime, and that the mere

6

"COLOR" of the blood in my partial palm print was scientific proof that it occurred
DURING the crime.
In order to support this theory, the prosecutor presented the following: 1) in
opening statements, the prosecutor told the jury that my blood on the bedsheet was
"drops" of blood (A 443), 2) a serologist testified, on 10 separate occasions, that
my blood was "isolated drips" and "isolated droplets", and then showed the jury her
hand-drawn Lab Notes, on an 8-foot projection screen, where she had my blood labeled
as "isolated drips" (A 444-459), 3) a crime scene expert testified that it would
have been easy for me to cut my hand on a slippery blood-covered knife while
stabbing the victims, and that she had worked on murder cases with that happening
(A 460-62), and 4) the medical examiner testified that a typical cut would not be
4
"dripping" blood the next day (A 463-65).
In my defense, my mother testified that I was at home all night, and that she woke
me up at 5:45 AM on January 25, 2002, which was her 50th birthday. She also said
that I had a bandage on my hand when I came home at 7:00 PM the night before, and
that I told her it was from falling while snowboarding with my son (A.466-476).
I testified that I was innocent of the crime, that the palm print was from shaking
the blood-covered victims to see if they were alive and then touching the wall, and
that the blood on the bedsheet "was not a drip", but was from me touching it with my
hand that had the unhealed snowboarding injuries from the day before (A 477-485).
On cross-examination, the prosecutor specifically claimed that I could not have
injured my hand snowboarding, because there was "no snow" on the ground that day,
that I really cut my hand on a slippery blood-covered knife while stabbing the
victims, that I left "drops" of my blood from the knife wound on the bedsheet, and
that I left my palm print DURING the crime when I leaned On the wall while stabbing
the victims (A 486-491).
In rebuttal, the prosecutor, claiming that snowboarding was part of my alibi,
called a forensic meteorologist and police officer to contradict my snowboarding

7

testimony (A 492-93). The meteorologist testified, on 10 separate occasions, that
the Gorge was an "open and exposed" area, and that there was "NO SNOW" on any open
and exposed areas, specifically "at the Gorge on January 24, 2002" (A 494-506).
The police officer testified that the Gorge WAS NOT a public park, that he's never
seen anyone sledding there, that the hill is "very dangerous" because anyone going
down the hill would go "over the edge" at the bottom, and that he would "absolutely
not" take his 7-year old child snowboarding there (A 507-512).
The prosecutor then, claiming that the Gorge was a "material place", asked, and
was granted, permission for the jury to leave and visit the Gorge (A 513-15).
In summation,

the prosecutor told the jury that my testimony and innocent

explanation for the physical evidence could not be true, because science and her
experts proved otherwise. Specifically, she claimed 1) that I couldn't have injured
my hand snowboarding, because the meteorologist had testified that "there was no
snow on the ground", 2) that my blood on the bedsheet "was not from touching" like I
said, but was "drips.. .meaning blood that dripped down free-flowing", like the
serologist testified, and 3) that the blood on the bedsheet could not have been due
to snowboarding injuries from the day before the crime, like I said, because the
medical examiner "told you that a typical cut is not going to still be bleeding the
next day". The prosecutor then completely misrepresented the medical examiner's
testimony regarding the timing of the palm print, by telling the jury that he had
testified that the mere "COLOR" of the blood in the palm print was scientific proof
that it occurred DURING the crime (A 516-528).
Even though the physical evidence was the most critical issue in deciding my guilt
or innocence, my lawyer called no experts to challenge the People's experts' con­
clusions, and no fact witnesses to corroborate my testimony of snowboarding and
injuring my hand. This left the jury to either believe :my .seeminglytestimony or that of four forensic experts.

8

self-serving

B. THE PROSECUTOR'S CLAIMED MOTIVE, OPPORTUNITY AND CONSCIOUSNESS-OF-GUILT EVIDENCE
Since there was no direct evidence against me, the prosecutor urged the jury to
conclude, based on the unsupported testimony of two police officers, that I had
motive and opportunity to commit the crime, and that during the investigation, I
displayed a consciousness-of=guilt. Regarding motive, the prosecutor claimed that I
was leading a drug-addicted life, that I had no money to pay rent and was evicted,
and that I killed the victims because Sam refused me drugs (A 529-537).
Regarding opportunity, the prosecutor claimed that I lived close to the crime
scene in Joslyn Apartments with Kathleen Kalendek^ that I used her car in the
conxnission of the crime and a witness saw it at the scene, and that a non-testifying
eyewitness saw me at the crime scene (A 538-555).
Regarding consciousness-of-guilt, the prosecutor, while showing the jury a photo
of Arica's dead body, told the jury that I intentionally injured my own hand, so
that my palm wouldn't match a bloody palm print found on Arica's back (A 556-565).
Even though these claims were unsupported, they severely hurt my credibility and
alibi. Although my lawyer had Kathleen Kalendek and Robbie Palmer available as
witnesses to refute these false claims, he called neither of them. Even though he
was given documents to prove the police were lying, he used none-of them.
C. THE JUNE 14th INTERROGATION
Since my lawyer never brought it to the Judge's attention that I refused to answer
questions because my prior lawyer had advised me not to, and failed to suppress my
statements on the ground that I was seized with a court-ordered . search warrant,
taken into custody and interrogated without proper Miranda warnings, the entire
recorded interrogation was played for the jury. This not only allowed the jury to
hear me repeatedly refuse to answer questions, but to also hear the police repeat­
edly say that they thought I was guilty, that my credibility will be destroyed when
the jury hears that I refused to answer their questions, and that they thought I was
trying to make up a false alibi with my mother (A 226-407).

9

D. MY POST-MIRANDA INVOCATION OF RIGHTS AND POST-ARREST SILENCE
On her direct case, the prosecutor, in direct violation of this Court's rule
announced in Doyle v Ohio 426 US 610 (1976), elicited testimony from a police
officer that I invoked my right to a lawyer and my right to silence AFTER he gave me
Miranda warnings, and that I was arrested because I refused to answer questions and
asked to end the interrogation (A 566-69). During cross-examination, the prosecutor
forced me to testify about my legal consultation and advice, my post-arrest silence,
and me exercising my right to a jury trial instead of answering police questions
(A 570-78). In closing statements, the prosecutor, in direct violation of this
Court's rules announced in Doyle and Griffin v California 380 US 609 (1965), invited
the jury to find me guilty based on me exercising my rights AFTER arrest, for
exercising my right to a jury trial instead of answering questions, and for
following the legal advice of my prior lawyer (A 579-588).
My lawyer never objected on Constitutional grounds, never asked for limiting
instructions for my attorney-advised silence,

and the Judge gave no curative

instructions for any of these clear Constitutional errors.
E. ALL OF THE WITNESSES AND EVIDENCE AGAINST BAPTISTE AND BERRY
Even though Battiste and Berry were previously indicted for this crime, none of
the witnesses or evidence against them was ever presented to my jury. After the
prosecutor conceded in opening statements that Battiste and Berry were conducting
surveillance on Sam just prior to the murders in preparation of robbing him (A 589),
my lawyer then told the jury that the two men were "falsely accused" and "innocent",
and that all of the witnesses against them were "scoundrels and bottom-feeders" who
all "lied" in order to get deals for themselves (A 590-603).
F. DELIBERATIONS
The jury asked for two reasbacks regarding 2 bloody hand smears with unknown blood
DNA admixed with the victims' blood, which excluded me as a donor, and an unknown
bloody palm print found next to one of the victims, which excluded me as a match

10

(A 604-611). After two days of deliberations, the jury found me guilty of First
Degree Murder.
G. SENTENCING
At sentencing, the Judge was going to allow me to present a pro se 330.30 Motion
in open Court, but my lawyer, without reading it, told me not to submit it (A 612620).

I did, however, give a statement in open Court, where I maintained my

innocence and told the Judge that my conviction was an injustice (A 621). The Judge
then sentenced me to life without parole (A 622).
POST-CONVICTION
After trial

I submitted a pro se 440.10 Motion based on Actual Innocence and

Ineffective Counsel,' which County Court summarily denied (A 1-5). In a consolidated
appeal, the Appellate Division affirmed my conviction, but reversed the summary
denial of my 440.10 Motion and ordered a hearing. (A 6-13). The N.Y. Court of
Appeals then denied Leave to Appeal and a Motion for Reconsideration (A 14-15).
In November of 2015, eight days of hearings were held for my 440.10 Motion. At the
Hearing, I presented 2 new forensic experts, 4 new fact witnesses, 1 new exculpatory
witness and transcripts of testimony from 4 other exculpatory witnesses, and over 30
pieces of new evidence, all of which was never presented to my jury. The new
witnesses and evidence not only proved my innocence and that much of the People's
6
case was false and misrepresented, but also showed who really committed this crime.
The prosecutor only called my lawyer, who had to testify under subpoena.
A. SNOWBOARDING, MY HAND INJURY AND THE PHYSICAL EVIDENCE
Regarding snowboarding and my hand injury:
1) A forensic meteorologist testified that the State's meteorologist was "wrong" and
that he "strongly disagreed" with the meteorologist's conclusions, because there
"definitely" was snow "at the Gorge...on January 24, 2002" (A 623-25).
2) Kathleen kalendek testified that she bought our son a snowboard for Christmas,
that she personally saw me and Cody return from snowboarding on January 24, 2002,

11

and that she personally cleaned and wrapped the injuries on my hand (A 626-639). She
also testified that, contrary to Officer Fountain's testimony, she has taken our
children and a friend snowboarding and sledding, at the Gorge, that there isn't any
"No Trespassing" signs, there was already sledding tracks on the hill, and that it
is not dangerous to go sledding there (A 640-44).
3) Dennis Caldwell Testified that he and his friends

as teenagers, have sledded at

the Gorge. He also said that he took photos of the Gorge and crime scene after it
snowed, in order to show that snow could be present at the Gorge but not .at the
7
crime scene, and that there was sledding tracks in the snow already (A 645-658).
Regarding the prosecutor's claim that I cut my hand on a knife:
1) A forensic blood spatter expert testified that if I had really cut my hand on a
knife DURING the crime, my blood would have been all over the scene (A 659-660).
2) Wilma Mosley and Kathleen Kalendek both testified that I did not have any knife
wounds or lacerations on my hands (A 661-64).
3) A doctor's note from just days after the crime, February 1, 2002, states that I
"fell 1 week ago snowboarding" and that I had a "swollen knuckle". There is no
mention of knife wounds, lacerations or scabs (A 665).
4) Just before trial, the police examined my hands for any old scars and took
photographs, but found no evidence of any scars from knife wounds (A 666-68).
Regarding the prosecutor's claim that my blood on the bedsheet was "drips": A
forensic blood spatter expert testified that the People's serologist "was not a
blood spatter expert" and in classifying my blood as "isolated drips" and "isolated
droplets", she used terms that were not recognized in the scientific community of
bloodstain pattern analysis. He also testified that it was scientifically impossible
for my blood on the bedsheet to be "drips" (A 669-680).
Regarding my partial palm print: A forensic blood spatter expert testified that it
was wrong for the prosecutor to claim that the blood on the victims would have been
dry by the time I found them, because the blood would have remained wet and sticky

12

for hours, and that it was wrong for the prosecutor to claim that the mere ’’COLOR"
of the blood in the palm print was proof that it occurred DURING the crime, because
it is scientifically impossible to age blood by its color (A 681-84).
Regarding my trial testimony:
1) The forensic blood spatter expert testified that my testimony of shaking the
blood-covered victims to see if they were alive, and then touching the wall, was
’’consistent" with the palm print evidence, and that my testimony of touching the bed
with a pre-existing hand injury was "consistent" with the blood evidence (A 682-85).
He also testified that the blood evidence found at the scene was NOT consistent with
the prosecutor's theory that I cut my hand on a knife DURING the crime and dripped
blood onto the bedsheet (A 686).
2) The forensic meteorologist testified that my testimony of snowboarding on January
24, 2002, was "consistent*with the weather evidence from that day (A 687).
My trial lawyer testified that even though the physical evidence was the biggest
problem for me, and that in order to believe my testimony and innocent explanation,
it was "necessary" for the jury to believe that I injured my hand while snowboarding
on January 24, 2002, he NEVER consulted with any experts and it "didn't occur" to
him to consult any in order to challenge the People's experts’ conclusions, or to
corroborate my testimony (A 688-693). He then tried to say that he didn't call a
blood spatter expert, because he had "no idea" that the prosecutor was going to
8
claim that I cut my hand on a knife arid dripped blood onto the bedsheet, and that he
didn't call a meteorologist, because, until rebuttal, he had "no prior notice" and
"didn't know" that the weather was going to be an issue or that the prosecutor was
calling an expert to contradict my snowboarding testimony (A 694-99). However, he
was impeached with the fact that he received, PRIOR TO TRIAL, the crime scene
expert's report, wherein she theorized that I cut my hand on a knife DURING the
crime, and the serologist’s Lab Notes, wherein she concluded that my blood on the
bedsheet was "isolated drips" (A 700-00). He was also impeached with the fact that
13

he received PRIOR NOTICE, via e-mails from Wilma Mosley, that the prosecutor was
calling a meteorologist and was going to claim ‘'there would not have been enough
snow for snowboarding" (A 709-716). However, my lawyer ignored these warnings, by
responding "Thank you for the advance notice. Sounds like one less witness we have
to call" (A 715). Also, the record clearly shows that the prosecutor told my lawyer
t
9
that "weather is an issue in this case" (A 717).
My lawyer then testified that even though Kathleen Ralendek told him, PRIOR TO
TRIAL, that she personally saw me return from snowboarding on January 24, 2002, and
had personally cleaned and wrapped the injuries on my hand, he didn't call her as a
witness. He said it was a "strategic" decision not to call her, because the
prosecutor could have used a prior domestic dispute between me and Ms. Kalendek to
10

hurt my credibility (A 718-20). However, the record clearly proves that the Judge
had precluded the prosecutor from mentioning the domestic dispute, and had upheld
that decision twice during trial (A 721-740). Also, despite my lawyer's alleged
"strategic" reasoning, he personally elicited testimony from me, twice, regarding
the very domestic dispute that he didn't want the juty to hear about (A 741-42.).
B. THE PROSECUTOR'S FALSE MOTIVE, OPPORTUNITY AND CONSCIOUSNESS-OF-GUILT CLAIMS
I testified that I was not leading a drug-addicted life at the time of the crime,
that I worked full-time during the day and then built a house addition on nights and
weekends from November of 2001 to February of 2002, and that I did not live close to
the crime scene and was never evicted. I also said that I gave my trial lawyer
sequentially dated building receipts, work records and before and after photos of
11
the house addition that I built, in order to support my trial testimony (A.743-771).
Kathleen Kalendek testified that 1) I never lived in Joslyn Apts, and was never
evicted for not paying rent, 2) I did not use her car on the night of the crime,
3) I was not leading a drug-addicted life and had been clean and sober for a year,
and 4) that I worked full-time during the day and remodeled a house on nights and
weekends. She told all of this to my lawyer PRIOR TO TRIAL, and provided him with

14

documents to prove the police were lying, but he didn't call her as a witness or use
any of the documents (A 772-803).
Documented evidence proves that the "white male" that the eyewitness saw was short
with "strawberry blond hair". I am 5' 10" with dark brown hair. Also, the unredacted
mugshot of me that the prosecutor said was from the time of the crime, was really
from 2 years earlier when my appearance was completely different. E-mails prove that
jurors made "quite a reaction" to the prosecutor's comments about a non-testifying
eyewitness seeing me at the crime scene and my unredacted mugshot (A 804-812).
Robbie Palmer testified that I did not intentionally injure my hand AFTER the
police asked me for my palm prints, but that he personally saw me accidentally hurt
my hand on a roofing job 10 DAYS BEFORE the police ever asked me for my palm prints,
and that the injury was just a couple of "small punctures". He also said that he
told all of this to my lawyer, but wasn't called as a witness (A 813-827).
A police-recorded phone log proves that I was working on a roofing job with Robbie
Palmer on May 4, 2010. A police affidavit from May 17th states that I injured my
hand on a roofing job and that the injuries were superficial with "no blood or
scabs". The palm print card proves that the injuries were only a couple of small
puncture wounds from the nails on the roof, not anything from a "cheese-grater",
like Inv. Gordon and the prosecutor claimed (A 828-833).
Kathleen Kalendek testified that she introduced Mr. Palmer to my lawyer and told
him that I hurt my hand on a roofing job with him (A 834-37).
My lawyer openly admitted that he "was aware" of the prosecutor's theories of
motive, opportunity and consciousness-of-guilt, that Kathleen Kalendek gave him
documents to prove the police were lying, and that Ms. Kalendek told him that I did
not use her car on the night of the crime. He "then went’-on‘and claimed, again, that
it was "strategic" not to call Ms. Kalendek because of the domestic dispute, and
because "the fact that she may have been able to testify whether or not Michael
Mosley drove her car was not hugely significant". He 'then admitted that he knew

15

Robbie Palmer was available to refute the prosecutor's claim that I intentionally
injured my own hand, but he didn't use him (A 838-42). My lawyer then admitted that
he didn't know what year my mugshot was taken, and that he knew I looked nothing
like the white male described at the scene. When asked why he didn't object to the
prosecutor's misrepresentation to the jury that it was me the non-testifying eye­
witness saw, he simply stated "If I didn't object, I didn't object" (A 843-45).
C. NEW EXCULPATORY WITNESSES.AND EVIDENCE
Since Battiste and Berry were originally charged with this crime, my lawyer
repeatedly told me and my family that he was interviewing and calling all of the
witnesses against them (A 846-859).' However, as the record shows, no witnesses, no
evidence, or even any arguments, pointing to Battiste and Berry's guilt was ever
presented to my jury, in order to raise a reasonable doubt as to my guilt. Instead,
my lawyer said that the two men were "falsely accused" and "innocent", and that all
of the witnesses against them were "scoundrels and bottom-feeders" (A 860-873).
At my Hearing, I presented all of the evidence against the two men that my lawyer
ignored, failed to investigate, and failed to present at trial, as follows:
Lester Crandall had to testify under subpoena, because Battiste had threatened him
in the past and he feared for his safety (A 874-78). In fact, every witness against
Battiste and Berry was threatened or feared for their safety (A 879-881). Lester
Crandall testified that Battiste made inculpatory admissions to him about the crime,
that he was part of a gang that robbed drug dealers, and that he used his wife's car
to drive two other men to the crime, but that he stayed in the car during the crime.
Battiste also told him that nobody was worried about their DNA being found, because
they all wore gloves and masks. Battiste then told him that he failed a lie-detector
test and that he was worried that someone saw him surveilling the victims' apartment
in his wife's car. Mr. Crandall also said that he testified against Battiste at the
Federal and State grand juries and Pre-trial Hearings, that he received no deals,
and that he specifically refused any part of the $10,000 reward (A 882-85).

16

My lawyer admitted that he received and reviewed the entire State file against
Battiste and Berry (A 886-89). The relevant portions are as follows: 1) an eye­
witness, Theresa Pitcher, saw 3 black men in a 4-door green car at the crime scene,
with Battiste being the driver. She also testified that she received no deals for
her testimony (A 890-901), 2) Linda Rings provided police with a statement, where
\

she said that her friend, Laura Billings, saw 3 black men leaving the scene in a
green car (A 902), 3) an FBI report shows that Battiste's wife, Tara Pompey, owned a
4-door green car and took it off the road shortly after the crime (A 903-04), 4) an
FBI report shows that Battiste told Lester Crandall that he was worried that someone
saw him surveilling the victims' apartment in his wife's car (A 905-06), 5) an FBI
report shows that Battiste, while being questioned, asked if he could still be
charged with murder if he was only the driver. When told "yes", he asked for a
lawyer (A 907-08), 6) Mafia Rodriguez told police that Battiste's wife threatened
and bribed her to make up a false alibi for Battiste (A 909-912), 7) Alyson Boyd
testified, twice, that he conducted surveillance on the victims' apartment with
Battiste and Berry just prior to the murders, but got arrested before the murders
and left town. He also said that Berry made inculpatory admissions to him about the
crime (A 913-953), 8) Wesley Reed testified that he was a member of "The Stickmen"
with Battiste and Berry, that they had robbed other drug dealers, and that they all
conducted surveillance on the victims' apartment before the murders, but he was
arrested and in jail at the time of the murder. He said that after the murders,
Berry said that "if the bitch wouldn't have moved, this never would have happened",
and that Berry threatened to kill his brother if he talked to the police. He also
said that he received no deals for his testimony (A 954-972), 9) Izel Dickerson told
police that Berry admitted that he and Battiste were involved in the crime. He said
that even though he was offered a deal to testify, he refused it and got the maximum
sentence (A 973-978), 10) Gary Gordon, the lead Investigator, testified that he was
unaware of any deals given to Izel Dickerson, and that Mr. Dickerson was credible,
17

because he relayed details of the crime given to him by Berry that only someone
involved with the crime would know. (A 979-80), 11) John Riegert, the lead Detective,
testified that he was unaware of any deals given to the witnesses. He said that he
had a concrete case against Battiste and Berry, that he was convinced of their
guilt, and that the unknown DNA on the bedsheet did not mean they didn't commit the
crime (A 981-998), 12) Dan Hanlon, the prosecuting ADA, testified that he reviewed
every single document in the case against Battiste and Berry, and he didn't indict
them until he was convinced of their guilt. He said even thdugh^ail ofj the witnesses
against them were unrelated to each other, they all gave consistent details, were
all credible, and none of them received any deals (A 999-1047), 13) Lester Crandall
testified that Battiste told him that he used his wife's car during the murders, but
was just the getaway driver, and that he failed a lie-detector test (A 1048-1055),
14) Battiste and Berry both failed lie-detector tests (A 1056-1061), 15) the unknown
blood DNA that was admixed with the victims' blood in Items 39 A & B was never
compared to Battiste or Berry (A 1062-64).
At the Hearing, Kieth Christianson, my trial lawyer's investigator, testified that
my lawyer never asked him to interview any of the witnesses against Battiste and
Berry. He said that my lawyer never asked him for a report outlining his investi­
gations, and that he only worked about 8 hours on my murder case (A 1065-69).
My trial lawyer testified that he read all of the police reports and testimony in
the State's file, but that neither he nor his investigator questioned any of the
witnesses, including the only eyewitness. He said that he didn't present a defense
based on Battiste and Berry's guilt, because he couldn't prove their guilt to my
jury, and that he didn't call any of the witnesses at my trial, because they all
"lied" in order to get deals and would be "unreliable" (A 1070-1083). This is
despite the fact that there is absolutely no legal basis for him to think that he
had to prove their guilt to my jury, and that the record proves the witnesses
received no deals and were all deemed credible by the police and prosecuting ADA

18

(A 979-1047). Also, Judge McAvoy of the Northern District Court found no evidence of
any deals (Battiste v Dept of Justice 2009 WL 308429 [2009])(A 1084-1094).
D. OTHER INSTANCES OF INEFFECTIVE COUNSEL
I also proved that my lawyer personally violated my Constitutional right to a
public trial, by excluding my family members from the courtroom during two days of
jury selection (A 1095-1108), personally lied to me and the Judge, so I wouldn't
submit my pro se 330.30 Motion at sentencing (A 1109-1127), and also allowed the
prosecutor to use a cryptic tattoo on my hand as propensity evidence, after telling
me that the prosecutor couldn't mention the tattoo (A 1128-1132).
STATE COURT DECISIONS
County Court found that I did not prove my innocence by clear and convincing
evidence, and that I was not denied effective assistance.of counsel (A 16-22).
On appeal, the Appellate Court found that 1) all of my lawyer's decisions were
"based on trial strategy", 2) his failure to present any experts wasn't ineffective,
because his cross-examination was "organized and effective", 3)‘ failing to call 3rdparty culpability witnesses was "strategic" because the witnesses were "potentially
unreliable" and would "reflect poorly" on me, and 4) his failure to suppress my
statements wasn't error, because I "voluntarily spoke with police and never invoked
[my]

right

to counsel".

Regarding Actual

Innocence,

the State Court,

while

acknowledging that my new evidence and witnesses refuted the People's witnesses and
theories, found that "much of the evidence presented was also presented to the
jury", and did not prove my innocence (A 23-31).
The New York Court of Appeals then denied my application for Leave to Appeal
(A 32).
THE DISTRICT COURT'S DECISION
On habeas review, the District Court credited all of my lawyer's testimony, found
that his decisions were strategic and unchallengeable, and that the record supported
the State Court's conclusions. It also found that 2 of my Ineffective Counsel claims

19

were procedurally barred. Regarding Actual Innocence, the District Court found that
the State Court's factual determinations of my Actual Innocence claim were not
reviewable in Federal habeas proceedings, and that my freestanding claim didn't
satisfy the "extraordinarily high" standard of Herrera (A 33-49).
The Second Circuit then denied my request for a Certificate of Appealability, and
my timely Petition for Panel Rehearing (A 50-51).
SUMMARY OF ARGUMENT
I DID NOT COMMIT THIS CRIME, and was denied my Constitutional right to a fair
trial, due to all of my lawyer's inexplicable errors. My lawyer unreasonably failed
to investigate and support the defense he presented to the jury, and, even though he
had PRIOR NOTICE that the prosecutor was calling experts to contradict my testimony
and innocent explanation for the only evidence connecting me to the crime, he NEVER
EVEN CONSIDERED consulting with any experts in order to make an informed decision as
to whether he could challenge the People's experts

conclusions or corroborate my

testimony. Even though he "was aware" of the motive, opportunity and consciousnessof-guilt claims that the prosecutor was going to make, my lawyer never presented any
of the known witnesses and • evidence in his possession that clearly refuted these
false claims. My lawyer allowed the prosecutor to elicit testimony from a police
officer that I invoked my rights AFTER I was given Miranda warnings, and then tell
the jury that my post-arrest silence and request for a jury trial were evidence of
guilt. Not only did my lawyer fail to corroborate any of my testimony or challenge
any of the prosecutor's unsupported theories, but he inexplicably failed to present
any exculpatory witnesses, evidence, or even any arguments, showing that two other
men committed this crime, not because of strategic reasons, but due to his "mistaken
beliefs" and "legal misunderstandings".
I h£ve now presented all of the witnesses and evidence that my lawyer failed to
present, which all clearly proves my innocence and warrants this Court's consider­
ation of my freestanding Actual Innocence claim. Even if this Court refuses to

20

answer this question, the District Court was still in error for not reviewing my
Actual Innocence claim under the Schlup "gateway" standard, in order to review the
two Ineffective Counsel claims that were found to be procedurally defaulted.
f

The denial of my claims was contrary to, and involved an unreasonable application
of, this Courtfs precedent, and was an unreasonable determination of the facts in
light of the evidence presented, pursuant to 28 USC §2254(d) (1) and (2).
ARGUMENT
I AM COMPLETELY INNOCENT OF THIS CRIME. I have an alibi for the time of the crime
and have now presented more than enough new evidence to support a "truly persuasive
showing of Actual Innocence" to warrant habeas relief under Herrera. My lawyer's
inexplicable failure to present any of this evidence caused the jury not to believe
my alibi and resulted in my wrongful conviction. Yet, due to the lower Court's un­
reasonable application of the law and facts, my conviction and life sentence stand.
POINT I. INEFFECTIVE COUNSEL
It is clearly established that counsel must thoroughly investigate the defense he
chooses to present the jury, and that his failure to discover and present evidence
to support that defense "cannot be justified as a tactical decision" if the decision
not to present"~the evidence was not based on a "reasonable investigation" (Wiggins
v. Smith, 539 US 510, 522-23- [2003]).
Additionally, when "the core" of the People's case is their experts' conclusions
regarding "the only evidence" linking the. defendant to the crime, then '"the only .
reasonable and available defense strategy REQUIRED consultation with experts or
introduction of expert evidence1" (Hinton v Alabama 571 US 263, 273 [2014]; quoting
Harrington v Richter 562 US 86, 106 [2011]). This is such a case.
A. COUNSEL'S FAILURES REGARDING. SNOWBOARDING AND THE PHYSICAL EVIDENCE
The most critical question for the jury in deciding my guilt or innocence was
whether the physical evidence occurred DURING the crime, like the prosecutor said,
or AFTER, the crime, like I said. If the jury believed that the physical evidence

21

occurred DURING the crime, they would have no choice but to convict. Therefore, my
lawyer's

most

important

duty

was

to

corroborate

my

testimony

and

innocent

explanation for the physical evidence. His duty to investigate was heightened, here,
since he was given ADVANCE NOTICE that the prosecutor was calling experts who's
conclusions were in direct contradiction to my testimony and that of my only alibi
witness. However, as the record proves, not only did my lawyer fail to consult with
or call any experts to corroborate my testimony, but due to him not consulting with
any experts, he was unable to challenge ANY of the adverse conclusions of the
People's experts, or the false and prejudicial claims made by the prosecutor.
Even though my lawyer specifically testified that he NEVER CONSIDERED consulting
with experts, and that "it didn't occur" to him to consult any in order to challenge
the People's experts or corroborate my testimony, the State Court found his decision
not to present any experts was "based on trial strategy". Even though my new experts
specifically testified that the People's experts were "wrong" in their conclusions
and that my testimony was "consistent" with the weather and physical evidence, the
State Court found that I wasn't prejudiced, because my lawyer's cross-examination
was "organized and effective". These conclusions are contrary to this Court's
precedent, and an unreasonable application of Strickland.
Firstly, the primary concern is not whether he presented experts, but whether the
investigation supporting his decision not to present experts was "itself reasonable"
(Wiggins 539 US at 523). Here, "the court did not conduct an assessment" of whether
the investigation supporting his decision not to present any: experts was reasonable
(id at 327). My lawyer specifically said that he NERVER investigated . the

physical

. evidence and didn't consult any experts. Therefore, his decision not to present any
experts was not an "informed decision" based on a "reasonable investigation" and
cannot be considered strategic. "As a result", the State Court's conclusion that his
decision not to present any experts was strategic, "despite the fact that counsel
based his

alleged choice on...an unreasonable investigation, was...objectively

22

unreasonable" and "reflected an unreasonable application of StricklandM(id. at 32728).
Secondly,

it was also unreasonable for the State Court to find my lawyer's

decision strategic, because "despite repeated questioning, counsel never offered,
and no evidence supports, any tactical rationale" (Andrus v Texas 140 SCt 1875, 1883
[2020]). Again, my lawyer specifically said that he NEVER conducted an investigation
of the physical evidence or consulted any experts. Therefore, his decision not to
present experts "cannot be justified as a tactical decision" (id.).
Thirdly, it is well-settled that when a lawyer is put "on notice" and "well aware"
of the evidence the prosecutor intends to use against a defendant, counsel "has a
duty" to conduct a "reasonable investigation" of that evidence (Rompilla v Beard 545
US 374, 375 [2005]; Andrus 140 SCt at 1882). Here, the record proves, and my lawyer
admitted, that he received PRIOR NOTICE that the crime scene expert had theorized
that I cut my hand on a knife DURING the crime, that the serologist concluded that
my blood on the bedsheet was "DRIPS" of blood, and that the prosecutor was calling a
meteorologist to prove there was "NO SNOW". Knowing that the experts’ conclusions
were going to contradict and be adverse to my testimony "’would have led a reason­
able attorney to investigate further’ Wiggins 539 US at 527. Yet counsel disregarded
rather than explored, the multiple red flags" (Andrus 140 SCt at 1883). Making this
error even more egregious is the fact that, since my lawyer knew what the experts
were going to say, he was put "on notice" that my primary defense of alibi "likely
would be ineffective", because, if my blood on the bedsheet was from a knife wound
sustained DURING the crime, then my alibi couldn't be true (Rompilla 545 US at 395).
Since he knew what "the prosecution intended to introduce" it was "objectively
unreasonable" for the State Court to conclude that my lawyer "could reasonably
decline to make any effort" to investigate the physical evidence (id. at 389-90).
Fourthly, this Court has held that where, as here, defense counsel affirmatively
selects a theory of defense and relies upon it throughout the case, his failure to

230

investigate and support that theory is "unreasonable” (Wigins 539 US at 356; Porter
v. McCollum 558 US 30, 32 [2009]). Here, my lawyer told the jury in opening state­
ments that the evidence would show ‘that the blood on the bedsheet was from snow­
boarding injuries on my hand; had my only alibi witness testify that she saw the
snowboarding injuries on my hand; had me testify that the blood was due to snow­
boarding injuries; and then told the jury in summation that the blood was from
snowboarding injuries. However, because he never consulted an expert or investigated
his own defense, he was unable to support any aspect of this defense, which left the
prosecutor's theory that there was "no snow" for snowboarding, that I cut my hand on
a knife DURING the crime, and DRIPPED FRESH BLOOD on the bedsheet, as the only
theory that was supported by any expert testimony. Ihe State Court’s conclusion that
it was somehow "strategic" for my lawyer not to investigate or support his own
theory is "an unreasonable application of Strickland", because "a decision not to
investigate...does not reflect reasonable professional judgment" (Wiggins 539 US at
533-34).
Lastly, not only did my lawyer fail to consult with or call any experts in order
to challenge the People's experts' conclusions, but he also inexplicably failed to
call Kathleen Kalendek to corroborate my testimony. Ms. Kalendek is the ONLY witness
with first-hand direct- knowledge that I went snowboarding on January 24, 2002, and
returned with a hand injury, which she personally cleaned and wrapped. This failure
to call Ms. Kalendek is especially egregious, because, as will be further explained
in this brief, not only was she a critical witness who was necessary to corroborate
my 'Snowboarding testimony, but she was also the ONLY witness with direct knowledge
that I did not drive her car on the night of the crime, and never lived in Joslyn
Apts, or was ever evicted for not paying rent. She also supported my testimony that
I was clean and sober at the time of the crime, and building a house addition on
nights and weekends. My lawyer specifically said that he didn't call her because the
prosecutor could have used the prior domestic dispute to hurt my credibility.

24

However, the record clearly proved that the Judge had precluded the prosecutor from
mentioning the domestic dispute,

and upheld

that ruling

twice during trial.

Therefore, my lawyer's decision not to call her as a witness was "unreasonable" and
"cannot be considered strategic"

because his decision "was not based on strategy,

but on counsel's mistaken belief" (Kimmelman v Morrison 477 US 365, 385 [1986];
Williams v Taylor 529 US 362, 395 [2000]; Hinton 571 US at 273)(failures were not
based on strategy, but on "mistaken beliefs").
Additionally, the State Court "based its conclusion, in part, on clear factual
errors" (Wiggins 539 US at 528), as follows:
1) The State Court found that "there was inadequate time to find an expert after the
People submitted a meteorologist's testimony on rebuttal". However, the record, and
my lawyer's own admissions, proves that he had ADVANCE NOTICE, via e-mails from
Wilma Mosley, that the weather was going to be "an issue", and the prosecutor was
12
"calling an expert" and going to claim "there was not enough snow for snowboarding".
2) The State Court found that my lawyer got the People's meteorologist to "concede
that

snow could be present

on

sheltered

surfaces"

and

that

"he could not

definitively state how much snow was on the ground in the Gorge the evening before
the victims were murdered". Both of these finding are clearly erroneous.
Firstly, when the meteorologist said that snow could be on sheltered surfaces, he
was specifically referring to "under a canopy of trees or up underneath an overpass
or overhang of a building"

not the Gorge, which is "open and exposed" (A 1133J-34).

Secondly, NOWHERE in the meteorologist's testimony did he EVER say that he didn't
know how much snow was on the ground "the evening before the victims were murdered".
He specifically said, 10 separate times, that there was "NO SNOW" on the ground on
January 24, 2002, which was the evening before the crime (A 1135-1148).
3) The State Court found that "trial counsel did not call defendant's wife to
testify because he believed that her testimony could been overshadowed by evidence
of a domestic violence incident perpetrated by the defendant". However

25

I have

already proven

that the Judge had precluded the domestic dispute from being

mentioned, and had upheld that ruling twice during trial.
4) The State Court found that there was no error regarding the palm print, because
the medical examiner "did not opine as to the timing of the palm print and his
explanation leaves

that question unresolved".

However, my claim was

that THE

PROSECUTOR committed the error, by misrepresenting the medical examiner's testimony
in summation, in order to claim that the mere "COLOR" of the blood in my palm print
was scientific proof it occurred DURING the crime

and that my lawyer was in­

effective for failing to correct this critical misstatement of physical evidence.
The State Court specifically relied on these incorrect findings in order to hold
that my lawyer's decisions were "based on trial strategy". I have proven by "clear
and convincing evidence" (28 USC 2254[e][l]) that these findings were incorrect, and
reflect "an unreasonable determination of the facts" (28 USC 2254[d][2]). "This
partial reliance on erroneous factual findings further highlights the unreasonable­
ness of the State court's decision" (Wiggins 538 US at 528).
After all of these erroneous factual findings, the State Court then found that I
wasn't prejudiced by my lawyer's failure to call any experts, because his crossexamination was "effective". However, the record clearly proves that his failure to
consult with or call any experts resulted in him being unable to challenge or
contradict ANY of the People's experts' conclusions.
Specifically, the record proves that 1) he NEVER EVEN CHALLENGED the serologist's
qualifications to give expert testimony as a blood spatter expert. Had he done so,
it would have been shown that she had no training in bloodstain pattern analysis and
was not qualified to give testimony as a blood spatter expert. So, her testimony, on
10 separate occasions, -that my blood was "drips", and her hand-drawn diagram with my
blood labeled as "drips", would not have been seen or heard by my jury, or would
have

at least, been shown to be unreliable, 2) not only did he fail to challenge

the serologist's qualifications, but he NEVER EVEN TRIED to contradict her testimony
26

that my blood was "drips", 3) he NEVER EVEN TRIED to contradict the crime scene
expert’s testimony that I cut my hand on a knife DURING the crime, 4) even though he
tried to contradict the meteorologist’s testimony, he was NEVER able to get him to
change his ultimate conclusion that there was "NO SNOW" at the Gorge, and 5) he
allowed the prosecutor to misrepresent the physical evidence and claim that the
"COLOR" of the blood in the palm print was proof that it occurred DURING the crime.
Due to my lawyer's completely inadequate cross-examination, the People's theory of
the only physical evidence went unchallenged, which resulted in me and my alibi
witness looking like liars, and the prosecutor being able to tell the jury that my
testimony COULD NOT BE TRUE, because her experts proved otherwise (A 516-528).
The prejudice that resulted from my lawyer's failure to consult or call any
experts is clearly reflected in the State Court's decision, where it found that:
"After hearing evidence from the medical examiner, an expert
serologist, crime scene analyst and meteorologist, the jury
rejected defendant's explanation that he discovered the victims
bodies the morning after they had been murdered, that he was
bleeding from a hand injury he suffered while snowboarding the
evening before at the Gorge located in Troy, and that his blood
transferred onto the victims' bedsheet as he attempted to move
the mattress to retrieve a hidden cell phone." (A 27)
It's also reflected in the District Court's decision, where it found that "the
physical evidence presented at trial was sufficient to support Mosley's conviction",
and that the prosecution's "theory of the case prevailed with the jury" (A 41).
*

\

Even the media and the People's meteorologist knew how "CRITICAL" it was for my
13
lawyer to corroborate my testimony of snowboarding and injuring my hand (A 1149-51).
This Court has held that "criminal case will arise where the only reasonable and
available defense strategy REQUIRES consultation with experts or introduction of
expert testimony" (Harrington 562 US at 788), and that when "the core of the
prosecution's case" depends on its experts' conclusions regarding THE ONLY EVIDENCE
connecting the defendant to the crime, "effectively rebutting that case REQUIRED a
competent expert on the defense side" (Hinton 571 US at 273). This is such a case.

27

This Court has clearly explained that the key inquiry for prejudice purposes is
the difference between what was actually presented at trial and what competent
counsel could have presented (Rompilla 545 US at 393; Sears v Upton 561 US 945, 956
[2010]), and that "if there is a reasonable probability that...an expert would have
instilled in the jury a reasonable doubt as to [defendant's] guilt", then the
defendant "was prejudiced by his lawyer’s deficient performance and is entitled to a
14
new trial" (Hinton 571 US at 276).
Here, my new experts specifically said that 1) the People’s experts were "wrong"
in their conclusions, 2) the serologist "was not a blood spatter expert" and used
terms that weren’t accepted in the scientific community of bloodstain analysis,
3) the prosecutor misrepresented the physical evidence, 4) there was no evidence
that I cut my hand on a knife during the crime, and 5) my testimony was consistent
with the blood and weather evidence. Also, Kathleen Kalendek completely corroborated
my testimony of snowboarding and injuring my hand.
Due to my lawyer failing to present these witnesses, my jury was FALSELY allowed
to believe that 1) I lied about snowboarding and injuring my hand, 2) I really cut
my hand on a knife DURING the crime, 3) my blood on the bedsheet was FRESH DRIPS
from the knife wound, 4) the COLOR of the blood in my palm print was scientific
proof that it occurred DURING the crime

and, most critically 5) my only alibi

witness lied about seeing a snowboarding injury on my hand and, therefore, must have
also lied about my alibi.
Had my lawyer presented the jury with forensic experts and Kathleen Kalendek, who
all corroborated my testimony and refuted every false claim and theory presented by
the prosecutor, "taken as a whole, might well have influenced the jury's appraisal
[of my credibility and innocence], and the likelihood of a different result if the
evidence had gone in is

sufficient to undermine confidence in the outcome’"

(Rompilla 545 US at 393; quoting Strickland 466 US at 694).
However, since the State Court completely discounted the testimony of Kathleen

28

Kalendek and my new experts, and never considered how their testimony would have
effected my jury, its conclusion that I wasn't prejudiced by my lawyer's failure to
investigate the physical evidence, or present the new witnesses, "was unreasonable"
(Porter 588 US at 455)(State Court's prejudice conclusion was unreasonable, because
it failed to consider new evidence and unreasonably discounted the effect of the new
expert's testimony). Here, as in Porter, "there exists too much...evidence that was
not presented to now be ignored...which is sufficient to undermine confidence in the
outcome" (id.).
Again, I have an alibi, and the whole outcome of my trial depended on whether the
jury believed that the physical evidence occurred DURING the crime or AFTER the
crime. No competent lawyer, KNOWING the People's experts were going to testify
adversely to me, would fail to investigate the physical evidence, fail to consult or
call any experts, fail to call critical fact witnesses, and fail to even try to
challenge the qualifications and conclusions of the State's experts.
B. FAILURE TO CALL CRITICAL FACT WITNESSES
No reasonable lawyer would ever KNOWINGLY allow the prosecutor to make false and
prejudicial claims that 1) I was leading a drug-addicted life at the time of the
crime and killed the victims for refusing me drugs, 2) I lived close to the crime
scene and was evicted for not paying rent, 3) I used Kathleen Kalendek's car on the
night of the crime and a witness saw it at the scene, 4) a non-testifying eyewitness
saw me at the scene, and 5) I intentionally injured my own hand so it wouldn't match
a bloody palm print on the victim's back. However, that is exactly what my lawyer
did. Even though he had available witnesses and evidence to refute these false
claims, he didn't call any of the witnesses or use any of the evidence.
My lawyer admitted HE KNEW the prosecutor was going to claim that I intentionally
injured my own hand, and that Robbie Palmer was available to refute that claim, but
he didn't call him. Since no explanation was given for this failure, it "cannot be
justified as a tactical decision" (Andrus 140 SCt at 1883).
29

My lawyer then admitted that Kathleen Kalendek told him, BEFORE TRIAL, that I was
not leading a drug-addicted life, that I did not live close to the crime scene, and
that . I did not drive her car on the night of the crime. He then admitted that she
gave him documents to prove the police and prosecutor were lying, but he didn't use
them. He claimed, again, that it was "strategic" not to call her because of the
domestic dispute, and because it "was not hugely significant" if I was driving her
car. I have already proven that his decision not to call her in order to corroborate
my snowboarding testimony was not reasonable or strategic, because the Judge had
precluded the use of the domestic dispute, but how any competent lawyer would not
use available impeachment evidence to show that two critical police witnesses lied,
or think it "was not hugely significant" for the prosecutor to tell the jury that I
used Kathleen Kalendek's car DURING the crime, is mind-boggling.
My lawyer also testified that, even though he knew I looked "nothing like" the
white male described at the scene, he didn't object or correct the prosecutor's
misrepresentation to the jury that it was me the non-testifying eyewitness saw at
the scene. Making this error even more egregious is the. fact that the Confrontation
Clause of the 6th Amendment and the Due Process Clause of the 14th Amendment
prohibit a prosecutor from using out-of-court statements against a defendant. Yet,
my lawyer, when asked why he didn't object to this Constitutional violation, simply
stated that "If I didn't object, I didn't object".
The State Court failed to make one single finding of fact regarding any of these
errors by my lawyer. I have clearly proven that the police and prosecutor's claims
were: false, that my lawyer knew they were false, and that he failed to use known
witnesses and evidence to show the claims were false. This Court has held that a
conviction must be set aside "if there is any reasonable likelihood that the false
testimony could have affected the jury" (US v Agurs 427 US 97, 103 [1976]). Here, my
jury was indisputably affected by the false claims, because they made noticeable
"reactions" to the prosecutor's false claim that a non-testifying eyewitness saw me

• 30

at the scene (A 804-812), and then were given specific instructions that they could
consider the prosecutor's false claims of motive in order to "support a finding of
guilt" (A 1152). Allowing a jury to falsely believe that I was leading a drugaddicted life, that I was evicted because I had no money for rent, and that I killed
the victims because they refused me free drugs, was "extremely prejudicial" because
jurors give "much weight" to evidence of a motive (House 547 US at 540).
0. COUNSEL'S FAILURE TO SUPPRESS THE JUNE 14th INTERROGATION ON CORRECT GROUNDS
My lawyer could have suppressed my statements on the ground that I was seized with
a court-ordered search warrant

taken involuntarily to the police station, and then

interrogated without proper Miranda warnings (Dunaway v New York 442 US 200, 207
[1979]). He also could have suppressed on the ground that my statements were taken
in violation of my. 5th Amendment rights, because the interrogation was outside the
specific scope of the search warrant, they were testimonial in nature, and I was
NEVER told that my statements could be used against me (Estelle v Smith 451 US 454
[1981]). He then failed to ask for limiting instructions for my attorney-advised
silence. These failures, "bespeak ineffectiveness" (Kimmelman 477 US at 385).
D. FAILURES REGARDING MY POST-MIRANDA INVOCATION OF RIGHTS AND POST-ARREST SILENCE
The 5th and 14th Amendments prohibit a prosecutor from eliciting testimony or
making mention that a defendant invoked his right to counsel or his right to silence
AFTER receiving Miranda warnings, and Due Process is violated when the prosecutor
invites a jury to infer guilt based on a defendant exercising a specific right
(Doyle 426 US at 617; Griffin 380 US at 609).
These Constitutional errors require little explanation, because the record CLEARLY
PROVES that the prosecutor elicited testimony from a police officer that I invoked
my right to a lawyer and my right to silence AFTER I was given Miranda warnings,
that I was cross-examined about my post-arrest silence, my choice to go to trial
instead of answering questions, my consultation and legal advice from my lawyer, and
that the prosecutor, in closing statements, then invited the jury to infer guilt

31

based on me exercising my rights, and my post-arrest silence, all while my lawyer
sat idle (A 566-588).
These Constitutional errors require relief
"Doyle rests on the

because this Court , has held that

fundamental unfairness of implicitly assuring a suspect that

his silence will not be used against him and then using his silence to impeach an
explanation subsequently offered at trials(Wainwright v Greenfield 474 US 284, 291
[1986]), which is exactly what occurred here.
Even though this was a clear record-based Constitutional error, the State Court
never made any mention of my post-Miranda invocation of rights or my post-arrest
silence, and, instead, found that I did not invoke my right to counsel DURING the
interrogation. However, this claim has nothing to do with my statements DURING the
interrogation, only the prosecutor's improper use of my silence and invocation of
15
rights AFTER I was given Miranda warnings and arrested.
I have proven by "clear and convincing evidence" that this was an unreasonable
determination of the facts by the State Court (Wiggins 539 US at 528).
E. THE FAILURE TO PRESENT EVIDENCE SHOWING THAT TWO OTHER MEN COMMITTED THE CRIME
It is a denial of Due Process to prevent a defendant from presenting evidence that
shows someone else committed the crime (Chambers v Mississippi 410 US 284 [1973]).
There, it was the Judge who precluded the exculpatory evidence. Here, it was my own
lawyer who prevented me from showing the jury that two other men committed this
crime. His decision not to present any of the exculpatory witnesses was not based on
any type of strategy after a reasonable investigation, but on his "mistaken belief"
that all of the witnesses received deals for their testimony and wouldn't be
credible, and his "legal misunderstanding" that he had to prove the other men's
guilt to my jury. As will be shown, neither reason can be considered strategic.
My lawyer specifically testified that he NEVER questioned any of the exculpatory
witnesses before deciding not to call them at trial, and that he didn't call them at
trial, because 1) they wouldn't be credible because they all "lied" in order to get
7
32

deals, and 2) he couldn't prove Battiste and Berry's guilt to my jury. The State
Court credited my lawyer's testimony and found that his decision "was based on trial
strategy", because the witnesses were "potentially incredible".
Firstly, the State Court's "principal concern" was supposed to be "whether the
investigation supporting counsel's decision...was itself reasonable" (Wiggins 539 US
at 522). This Court has clearly explained that "counsel has a duty to conduct
reasonable investigations" (Strickland 466 US at 690), and that routine preparation
"involves the location and interrogation of potential witnesses" (Taylor v Illinois,
484 US 400, 415 [1988]). Here, my lawyer said that he didn't question any of the
witnesses before deciding not to call them at trial. In Schlup v Delo, 513 US 298
(1995), counsel did the exact same thing. There, as here, he was provided with
transcripts and testimony from exculpatory witnesses who indicated that someone else
committed the crime. Counsel testified, also as here, that he didn't question any of
the exculpatory witnesses, and that he didn't call them at trial, because they were
"unreliable" and " would not be credible". In reviewing his pre-trial investigation,
this Court stated that "In fact, counsel apparently failed to conduct personal
interviews with any of the potential witnesses to the crime" (id. at 311), and that
if these witnesses were found to be credible "it surely cannot be said that a juror,
conscientiously following the judge's instructions requiring proof beyond a reason­
able doubt, would vote to convict" (id. at 331). Here, the record clearly proves
that these witnesses were deemed credible by a Federal and State grand jury
police, the prosecuting ADA, and by Judge McAvoy. "Clearly,

the

the known evidence

would have led a reasonable attorney to investigate further'" and question these
exculpatory witnesses, in order to make an "informed decision" as to whether or not
to call them at trial (Andrus 140 SCt at 1883; quoting Wiggins 539 US at 527).
Secondly, it is well-settled that counsel's decision "cannot be strategic" if it's
based on "mistaken beliefs" or "legal misunderstandings" (Kimmelman 477 US at 385;
Williams 529 US at 395; Hinton 571 US at 274). Here, the exculpatory witnesses, the
33

police, and the prosecuting ADA, all testified that the witnesses received no deals,
and Judge McAvoy found no evidence of any deals. Therefore, my lawyer's decision not
to present the exculpatory witnesses was based on his "mistaken belief" that all the
witnesses "lied" in order to get deals, and cannot be considered strategic. Also,
there is absolutely no legal basis for my lawyer to think he had to prove Battiste
and Berry's guilt to my jury, so his decision cannot be considered strategic,
because it was based on his "legal misunderstanding". His duty is to raise a
reasonable doubt regarding my guilt, which showing the jury that two other men
committed the crime would have easily done (House 547 US at 554; Schlup 513 US at
331). In fact, a defense based on Battiste and Berry's guilt would have forced the
prosecutor to DISPROVE their guilt, which would have been impossible, because the
police and prosecutor had all testified that they were "convinced" of their guilt.
Making this error even more egregious is the fact that not only did my lawyer fail
to present any of the exculpatory witnesses, or even make any arguments that the two
men were responsible for the crime, but he, based on no evidence whatsoever,
inexplicably told my jury that Battiste and Berry were "falsely accused" and
"innocent", and that all of the witnesses against them were "scoundrels and bottomfeeders" who "lied" in order to get deals. These claims by my own lawyer effectively
took away any reasonable doubt and left me as the only person the jury could
consider as guilty. This is an entirely "circumstantial case", so, had my lawyer
presented the jury with all of the "substantial evidence pointing to a different
suspect...it is more likely than not that no juror viewing the record as a whole
would lack reasonable doubt". Especially since I also "called into question" the
only physical evidence connecting me to the crime (House 547 US at 554)(new experts
and exculpatory witnesses "cast considerable doubt on his guilt").
E. THE CUMULATIVE EFFECT OF MY LAWYER'S FAILURES
I have an alibi for the time of the crime. The only reason it wasn’t believed by
the jury is because my lawyer failed to corroborate ANY part of my testimony and

34

that of my only alibi witness

and failed to refute or even challenge ANY part of

the State's theories. "Taken as a whole", my lawyer’s 1) failure to EVEN CONSIDER
consulting or calling any experts in order to corroborate my testimony regarding the
only physical evidence, even though "materials prepared by an...expert well before
trial” had put him "on notice" that the experts’ testimony was going to contradict
and be adverse to my innocent explanation, 2) his failure to call critical fact
witnesses or use evidence in his possession in order to "rebut...critical evidence",
3) his failure to suppress my statements on the ground that I was seized with a
court-ordered search warrant, taken into custody, and interrogated without proper
Miranda warnings, or bring it to the Judge's attention that I refused to answer
questions because I was legally advised not to, 4) his failure to object to the
impermissible use of my post-Miranda invocation of rights and post-arrest silence,
and 5) his egregious failure to present any witnesses, evidence or arguments showing
that someone else committed this crime, ’’cannot be justified" and completely denied
me of my Constitutional right to the effective assistance of counsel and my
Constitutional right to a fair trial (Andrus 140 SCt at 1883-84).
Even though my lawyer failed to present any of the witnesses and evidence that I
did after my trial, the jury still deliberated for 2 days and asked for read-backs
regarding physical evidence that EXCLUDED me as a match (Parker v Gladden 385 US 363
[1966])(jurors deliberating for 26 hours indicated a "difference among them as to
the guilt of the petitioner" [id at 365]). On direct appeal, without the benefit of
all the new witnesses and evidence, the State Court still found that "a different
result would not have been unreasonable" (A 9). This is proof that I was prejudiced
and, had the jury heard all of my new witnesses and evidence, "no reasonable juror
would have lacked reasonable doubt" (House 547 US at 554; Porter 558 US at 454-56).
POINT II. ACTUAL INNOCENCE
I am asking this Court 1) to finally hold that a freestanding claim of Actual
Innocence is cognizable in Federal habeas proceeding and to announce a standard of

35

review, and 2) whether the District Court was in error for not reviewing my Actual
Innocence claim under the Schlup "gateway” standard in order to review the two
Ineffective Counsel claims that it found were procedurally barred.
16
A. FREESTANDING ACTUAL INNOCENCE
I have presented the quantity and quality of "convincing proof of innocence" that
this Court has hinted could be sufficient to establish a freestanding claim of
Actual Innocence under Herrera (House 547 US 555).
This Court's holding in House should be controlling in my case, because the facts
of his case are "materially indistinguishable" from -the facts of my case (Williams,
529 US at 406). Both of us were convicted of murder based on entirely circumstantial
evidence, and during trial 1) both of our prosecutor's told the jury that the blood
evidence occurred DURING the crime, 2) both of our prosecutor's told the jury that
injuries on our .hands occurred DURING the crime, 3) both of our prosecutor's told
the jury that we used our girlfriend's car DURING the commission of the crime,
4) both of our prosecutor's told the jury that we had motive and opportunity to
commit the crime,

and. 5) both of our prosecutor's told the jury in closing

statements that science proved our guilt.
After trial, both of us were given Actual Innocence and Ineffective Counsel .
Hearings. At our Hearings, 1) both of us presented experts who proved that the blood
evidence presented at trial was misrepresented, and that the blood occurred AFTER
the crime, not DURING, 2) both of us presented witnesses who proved that our hand
injuries occurred BEFORE the crime, not DURING, 3) both of us presented witnesses
who proved that the prosecutor's motive claims at trial were false, 4) both of us
presented witnesses and evidence showing that someone else committed the crime, and
that the alternate suspects had confessed to the .crime, had motive to commit the
crime, had been plotting to commit the crime, and had attempted to construct a false
alibi, and 5) both of our lawyers admitted to not using evidence in their possession
to undermine the People's case.

36

After our Hearings

both of our Court’s found that 1) our testimony was not

credible, 2) our witnesses supporting 3rd-party culpability were not credible,
and there was no physical evidence from the alternate suspects found at the scene,
3) our new experts did not prove that we were factually innocent, and 4) there was
still some remaining evidence to support our convictions.
On certiorari,

this Court reversed and, granted House relief, on his Schlup

"gateway" claim of. Actual Innocence. This Court concluded that, since it was an
entirely circumstantial case, if the jury had been presented with the new forensic
expert challenges to the only blood evidence, presented with the fact that House had
no motive, and presented with the new evidence showing that someone else could have
committed the crime

"it is more likely than not that no reasonable juror viewing

the record as a whole would lack reasonable doubt" (House 547 US at 554).
After granting relief on House’s Schlup claim, this Court then concluded that,
even though House had "cast considerable doubt upon his guilt", he fell short of the
showing of proof needed to support a freestanding claim of innocence, because "some
aspects of the State's case...still support an inference of guilt", such as the
victim's daughter hearing a man with a deep voice like his, House taking a strange
walk at night during the time of the crime, and House trying to concoct a false
alibi. Here, there is no remaining aspect of the State's case remaining.
Not only did I present the same kind of new evidence that resulted in House's
relief, but, unlike House, who concocted a false alibi, I have an actual alibi for
the time of the crime and, also unlike House, who had some remaining circumstantial
evidence showing he had an opportunity to commit the crime, I have effectively
proven as FALSE the prosecutor's unsupported claims that I lived close, to the crime
scene, that I drove my girlfriend's car during the commission of the crime, and that
a non-testifying eyewitness saw me at the crime scene.
This is a completely circumstantial case, with no eyewitness, direct evidence or
confession against me. I have an alibi, which was my mother's 50th birthday, and it

37

L

has never been discredited or shown to be false. I have presented substantial new
witnesses and evidence showing that two other men really committed the crime. I have
presented new- forensic experts who not only corroborated every aspect of my trial
testimony and innocent explanation for the only physical evidence, but also clearly
proved that the People's experts were wrong in their conclusions, that the pros­
ecutor misrepresented the physical

evidence, and that the People's serologist

wasn't even qualified to give testimony as a blood spatter expert. I presented new
witnesses and evidence that clearly proved the prosecutor's motive, opportunity and
consciousness-of-guilt claims were completely false and made-up. I also presented
clear proof that the jury was impermissibly allowed to consider my post-Miranda
invocation of rights and my post-arrest silence as evidence of guilt, that the jury
made noticeable "reactions" to the prosecutor's false claim that a non-testifying
eyewitness saw me at the scene

and that jurors were given specific instructions

that they could consider the prosecutor's false motive in order to "support a
finding of guilt".
Additionally, none of my DNA or fingerprints were found on any of the murder
weapons found at the scene; there was two locations of unknown blood DNA admixed
with the victims' blood, which EXCLUDED me; there was an unknown bloody palm print
next to one of the victims, which EXCLUDED me; there was an unknown bloody bootprint
next to one of the victims, which DID NOT match my boots; there was an unknown gun
found at the scene, which was logged under a different case (A 1153-1166).
I testified for 2 days at my trial. Even without the benefit of any expert or fact
witnesses to corroborate my testimony, I was never, impeached or shown to be lying,
and the jury still deliberated for two days and asked for read-backs regarding the
physical evidence that EXCLUDED me as a match. There is no escaping the fact that I
would have been acquitted if the jury was presented with my new witnesses and
evidence, because, without any conclusive physical evidence

without a motive,

• without opportunity, without an eyewitness, without a confession, and without any

38

direct evidence, no rational juror could or would have had any legal or factual
basis for convicting me beyond a reasonable doubt. Add to that the^fact that I have
'an uncontroverted alibi and the substantial evidence showing that two other men
really committed this crime, and that those men were surveilling the victims, had
confessed to the crime, and attempted to fabricate an alibi, this Court should have
no doubt that I was wrongly convicted and am serving someone else’s life sentence.
My jury never saw or heard any of the new witnesses or evidence (Porter 558 US at
454-55; House 547 US at 554), which, as a whole, represents a "truly persuasive
showing of actual innocence" sufficient to warrant freestanding habeas relief
(Herrera 506 US at 417; House 547 US at 555).
This Court has stated that "comity and finality...’must yield to the imperative of
correcting a fundamentally unjust incarceration’" (House 547 US at 518), and that
the "concern about the injustice that results from the conviction of an innocent
person has long been at the core of the criminal justice system" (Schlup 513 US at
325). However, those words have no real meaning if an innocent man unjustifiably
remains in prison due to the Federal courts beings precluded from reviewing claims
of freestanding Actual Innocence, just because this Court refuses to decide whether
freestanding claims are cognizable on Federal habeas review. I have presented more
proof of innocence that House or Schlup, and respectfully ask this Court to answer
the question left open in Herrera, in order to end this miscarriage of justice.
B. THE SCHLUP "GATEWAY" CLAIM OF ACTUAL INNOCENCE
Even if this Court doesn’t decide whether a freestanding claim is cognizable on
. habeas review, the District Court was still in error for not reviewing my Actual
Innocence claim under

the Schlup "gateway" standard,

in order to review my

procedurally barred Ineffective Counsel claims. In Schlup, this Court held that a
"credible and compelling" claim of innocence can provide a "gateway" for a pro­
cedural barrier to habeas . review. Like Schlup, my claim of innocence "depends
critically on the validity of [my] Strickland...claims" (id 513 US at 315). However,

39

the District Court specifically found that two of my Ineffective Counsel claims were
procedurally barred, without first considering whether my new evidence satisfied the
Schlup ’’gateway" standard, in order to excuse the procedural bar.
Had the District Court reviewed my claim under Schlup, it would have been able to
correctly consider ALL of my lawyer's errors "taken together" (Andrus 140 SCt at
1882), and consider "all of the evidence" to assess the likely impact on my jurors
(House 547 US at 538). It would have also been able to consider the credibility of
the trial witnesses (Schlup 513 US at 330). instead, the District Court reviewed my
claim under the prohibited Jackson standard (House 547 US at 538), and specifically
held that it -was "precluded from re-weighing the evidence or assessing the credibil­
ity of the witnesses" (A 40-41). The Schlup "gateway" standard ensures that no
innocent man is convicted due to a Constitutional error (Schlup 513 US at 316), and
should be applied to my case.
CONCLUSION
I DID NOT COMMIT THIS CRIME, .but due to all of my lawyer's proven errors, I was
wrongfully convicted and sentenced to spend the rest of my life in prison. I have
now presented all of the expert witnesses, fact witnesses, exculpatory witnesses,
and vast amounts of documented evidence,that my lawyer failed to present, which
all corroborated my testimony and innocent explanation for the ’ only physical
Evidence, refuted the prosecutor's false theories, and proved my innocence.
Therefore, the petition for a writ of certiorari should be granted.

Dated:

May 13, 2021
Respectfully submitted,

Michael Mosley,
.3334
Petitioner, Pro^se

40

FOOTNOTES

1. Sam had Court on the morning of January 25, 2002, because he was
arrested for driving without a license on the night before. When
he was arrested, he gave a false name and told the officer there
was "a hit" out on him from 'The Bloods', because . he testified
against some gang members in NYC (A 1167-1171).
2. The Department of Justice had originally found that my palm print
was negative to the one found at the scene (A 1172-73).
3.

My lawyer never called Ms. Kalendek at trial to debunk this
theory, but she did refute it at my Actual Innocence Hearing.
4. The average person understands that "DRIPS" of blood only occur at
the time of an injury. The words "DRIPS" and."DROPS" of blood were
used against me a total of 22 times at my trial, in order for the
prosecutor to convince the jury that I cut my hand on a knife
DURING the crime and DRIPPED FRESH BLOOD. It wasn’t discovered
until after trial that it was scientifically impossible for my
blood on the bedsheet to be drips. The 3rd and 9th Circuits have
held that Due Process is violated when flawed expert testimony is
presented at trial (Han Tak Lee v. Houtzdale 798 F3d 159 [3rd Cir.
2015]; Giminez v. Ochoa 821 1136 [9th Cir. 2016]).
5. Joslyn Apartments is approximately 1.5 miles from the crime scene.
6. I had 4 forensic blood spatter experts offer their assistance, but
the Judge only allowed County funds for one of them (SR 0124-0202)
7. This testimony and evidence not only corroborated my testimony,
but directly contradicted the prosecutor's claim that there COULD
NOT be snow at the Gorge, because photos of the crime scene from
the time of the crime didn't have any snow in them (A 1174).
8.
J

Even though my lawyer testified that he had "no idea" that the
prosecutor was going to claim that the blood on the bedsheet was
due to me cutting my hand on a knife during the crime, until she
said it in her closing statement, the record proves that he
specifically told the jury, in his closing statement
which was
before the prosecutor's, that "the DA wants you to believe that
Mike was in there stabbing people and cut himself on a knife and
that's why his blood in there" (A 1175).

9.

The People's
e-mails were
May 9th, and
him that the

meteorologist didn't testify until Hay 27th. The
sent to my lawyer on the very first day of trial,
on May 23rd. Then, on May 25th, the prosecutor told
weather was "an issue" and she was contesting the

existence of snow at the Gorge. This contradicts my lawyer's
claim that he had "no prior notice" that the weather would be an
issue at my trial (A 714-17).
10. My lawyer also told Kathleen Kalendek that she wasn't needed at
trial because "nobody was going to care if I was snowboarding"
(A 1176-77).
11. In conjunction with each other, my time cards, work records,
sequentially timed and dated building receipts, and the beforeand-after photos of the house addition I built, prove that from

12.

13.

September 2001 to February 2002, I worked every day from 7:30 AM
to 4:00 PM, then driving 45 minutes away, to build a house
addition on nights and weekends. This clearly contradicts the
police and prosecutor's claim that I was buying and selling
drugs at the time of the crime and leading a drug-addicted life.
Again, the People's meteorologist didn't testify until May 27th.
The record proves that my lawyer1 had ADVANCE NOTICE on May 9th,
May 23rd, and. May 25th (A 714-717).
The importance of the weather, snowboarding and my hand injury,
cannot be overstated, In total, 35 pages were specifically
dedicated to questioning me about the weather, snowboarding and
my hand injury;
29 pages were specifically dedicated to
questioning my alibi witness about the weather, snowboarding and
my hand injury;
2 full days of rebuttal witnesses were
specifically dedicated to the weather and snowboarding; a
special request for the jury to leave the courthouse and visit
the Gorge
statement

was
was

approved;

17

pages

of

my

lawyer's

closing

specifically
dedicated
to
the
weather,
snowboarding and my hand injury; and a total of ,10 pages 'of
the prosecutor's closing statements was specifically dedicated
to the weather, snowboarding and my hand injury. Obviously, this
was a CRITICAL issue at my trial.

<*

14.

If the jury believed that I lied about snowboarding, then they
could

conclude

that

me

and

my

mother

both

lied

about

a

snowboarding injury on my hand, and that I must have really cut
my hand on a knife DURING the crime, like the prosecutor said,
and, therefore, that me and my mother must have also lied about
my alibi.
15. I have 2 separate and distinct claims in my petition. Firstly, my
lawyer failed to suppress my statements on the correct grounds,
ask for limiting instructions for my attorney-advised silence.
Secondly, he failed to object to the prosecutor's impermissible
use of my post-Miranda invocation of rights and my post-arrest
silence.
16.
17.

I was the very first inmate in New York State to have a 440.10
Hearing conducted based on freestanding Actual Innocence.
This new evidence would have shown the jury that Inv. Gordon and
Det. Riegert deliberately lied, when they testified that 1) I
was buying and selling drugs at the time of the crime and
leading a drug-addicted life, 2) I lived close to the crime
scene in Joslyn Apts, and was evicted shortly after for not
paying rent,

and 3)

I intentionally injured my own hand,

that

"oozing

fluid"

it was

and looked like I

and

took a "cheese

grater" to it. It also proved that Inv. Gordon lied, when he
testified that I "agreed" to go with him to the police station
on June 14th.

}

